No.

In the
SUPREME COURT OF THE UNITED STATES

FRANKLIN COX, Petitioner

V.
TEXAS WORKFORCE COMMISSION
AND LINCOLN TECHNICAL., Respondent
PROOF OF SERVICE
I, Franklin L. Cox
do swear or declare that on this date . July 28 2020
as required by Supreme Court Rule 29 I have served the enclosed
NOTICE OF WITHDRAWAL OF MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS & DECLARATION OF INDIGENCY DOES NOT
APPLY; and to file PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of
them and with first- class postage prepaid, or deliver to a third -party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Matthew T. Kennedy P.O. Box 12548, Austin , Texas , 78711-2548
Telephone: (512) 463-8897 certified r/r # 7020 1290 0001 8233 4512.
Victor Navasca Corpuz, 500 N. Akard, Ste.2500, Dallas, Texas 75201
Telephone: 214 520-2400 certified r/r # 7020 1290 0001 8233 4536.
Office of the Clerk, Supreme Court of the United States , 1 1ST NE
Washington, DC 20543-0001 certified r/r # 7020 1290 0001 8233 4529.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 28. 2020.1.
Franklin L. Cox

'

